May 12, 2021

Orrick, Herrington & Sutcliffe LLP

(via electronic filing and mail)

+1 212 506 5000

51 West 52nd Street
New York, NY 10019-6142
orrick.com

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

E. Joshua Rosenkranz

E jrosenkranz@orrick.com
D +1 212 506 5380
F +1 212 506 5151

APC Investment Co., et al. v. Arconic, Inc., et al., No. 20-1337

Dear Mr. Harris:
On behalf of respondents in the above-referenced case, we are writing to
inform the Court that the following respondents have changed their names:


Arconic Inc. has changed its name to Howmet Aerospace Inc.



Applied Micro Circuits Corp. has changed its name to MACOM
Connectivity Solutions, LLC



Hercules Incorporated has changed its name to Hercules LLC to reflect its
change from a stock corporation to a membership company



Univar USA Inc. has changed its name to Univar Solutions USA Inc.

Further, one of the respondents has been incorrectly identified. The name of
respondent Masco Corporation of Indiana should be corrected to Masco Building
Products Corporation.
Respondents respectfully submit that the caption of this action and all future
filings and correspondence should reflect the above name changes and correction.
The updated list of respondents is as follows: BASF Corporation; Baxter Healthcare
Corporation; Cal-Tape & Label Co.; California Hydroforming Company, Inc.; Cintas
Corporation; Columbia Showcase & Cabinet Company, Inc.; County Of Los Angeles;
Crosby & Overton, Inc.; Disney Enterprises, Inc.; FHL Group; Forenco, Inc.;

Page 2
General Dynamics Corporation; Hercules LLC, f.k.a. Hercules Incorporated; Hexcel
Corporation; Honeywell International Inc.; Howmet Aerospace Inc., f.k.a. Arconic
Inc.; International Paper Company; Los Angeles County Metropolitan
Transportation Authority; MACOM Connectivity Solutions, LLC, f.k.a. Applied
Micro Circuits Corp.; Masco Building Products Corporation; Mattel, Inc.; Merck
Sharp & Dohme Corporation; Pilkington Group Limited; Quest Diagnostics Clinical
Laboratories, Inc.; Raytheon Company; Safety-Kleen Systems, Inc.; SoCo West, Inc.;
Sparton Technology, Inc.; The Boeing Company; The Dow Chemical Company; The
Regents Of The University Of California; TriMas Corporation; and Univar Solutions
USA Inc., f.k.a. Univar USA Inc.
Respondents have also filed a notice alerting the district court in this matter
to the above name changes and correction. Petitioners have not opposed the
changes, and both sides have used the updated caption in their most recent district
court filings.

Respectfully submitted,
s/ E. Joshua Rosenkranz
Nancy Sher Cohen

E. Joshua Rosenkranz

Counsel for Respondents

Counsel for Respondents Baxter Healthcare
Corporation, The Boeing Company, and
The Dow Chemical Company

cc: Counsel for Petitioners

